                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                        FINAL REPORT:

                REVIEW OF THE ADMINISTRATION OF
                 PAYMENTS RECEIVED UNDER THE
                 HELP AMERICA VOTE ACT BY THE
                 GEORGIA SECRETARY OF STATE




Report No.
E-HP-GA-05-06
July 2006
                          U.S. ELECTION ASSISTANCE COMMISSION
                                   OFFICE OF INSPECTOR GENERAL
                                1225 New York Ave. NW - Suite 1100
                                       Washington, DC 20005

                                                                             July 12, 2006

Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Roger La Rouche
           Acting Inspector General

Subject:   Final Report on Review of the Administration of Payments Received Under
           the Help America Vote Act by the Georgia Secretary of State (Assignment
           No. E-HP-GA-05-06)

        This report presents the results of the subject review. The objective of the review
was to determine whether Georgia (1) managed Help America Vote Act (HAVA) funds
in accordance with the Uniform Administrative Requirements for Grants and Cooperative
Agreements with State and Local Governments and with the Cost Principles for State,
Local, and Indian Tribal Governments and (2) complied with HAVA requirements for
maintaining the election fund and sustaining the State’s level of expenditures for
elections.

        The report concluded that Georgia administered the HAVA funds in accordance
with the Administrative Requirements and the Cost Principles and that Georgia complied
with the HAVA requirement for maintaining the State’s level of expenditures for
elections. However, Georgia did not fully comply with the requirement for the
establishment of an election fund in that it established the fund in a commercial bank
instead of the State Treasury. In a June 1, 2006 response to the draft report (Attachment
1), the Georgia Secretary of State concurred with the report’s conclusions. In its reply
(Attachment 2), the U.S. Election Assistance Commission (EAC) said that since the
State had expended most of its HAVA funds and spent in excess of its matching
requirement that it was not now necessary for Georgia to set up an election fund in the
State Treasury. The EAC also replied that if Georgia receives additional HAVA funds,
Georgia should be prepared to set up an election fund in the State Treasury.

        Since the report does not contain any recommendations, no further response to the
Office of Inspector General is required. The legislation, as amended, creating the Office
of Inspector General requires that we report to Congress semiannually on all audit reports
issued, actions taken to implement our recommendations, and recommendations that have
not been implemented. Therefore, this report will be included in our next semiannual
report.

        If you have any questions about this matter, please call me at (202) 566-
3100.
                          BACKGROUND

HELP AMERICA              The Help America Vote Act of 2002 (HAVA) created the U.S.
VOTE ACT                  Election Assistance Commission (EAC or Commission) to assist states
                          and insular areas1 with the administration of Federal elections and to
                          provide funds to states to help implement these improvements. HAVA
                          authorizes payments to states under Titles I and II, as follows:

                              9 Title I, Section 101 payments are for activities such as
                                complying with HAVA requirements for uniform and
                                nondiscriminatory election technology and administration
                                requirements (Title III), improving the administration of
                                elections for Federal office, educating voters, training election
                                officials and poll workers, and developing a state plan for
                                requirements payments authorized by Title II.

                              9 Title I, Section 102 payments are available only for the
                                replacement of punchcard and lever action voting systems.

                              9 Title II, Section 251 requirements payments are for complying
                                with Title III requirements for voting system standards; and for
                                addressing provisional voting, voting information, statewide
                                voter registration lists, and voters who register by mail.

                          Title II also requires that states must:

                              9 Have appropriated funds “equal to 5 percent of the total amount
                                to be spent for such activities [activities for which requirements
                                payments are made].” (Section 253(b)(5)).

                              9 “Maintain the expenditures of the State for activities funded by
                                the [requirements] payment at a level that is not less than the
                                level of such expenditures maintained by the State for the fiscal
                                year ending prior to November 2000.” (Section 254 (a)(7)).

                              9 Establish an election fund for amounts appropriated by the state
                                for “for carrying out the activities for which the requirements
                                payment is made,” for the Federal requirements payments
                                received, for “such other amounts as may be appropriated under
                                law,” and for “interest earned on deposits of the fund.” (Section
                                254 (b)(1)).


1
    The Commonwealth of Puerto Rico, American Samoa, Guam, and the United States Virgin Islands.




                                                   1
                          HAVA funds received and expended by Georgia are as follows:
FUNDING FOR
                              TYPE OF               AMOUNT                  EXPENDITURES
GEORGIA                       PAYMENT              RECEIVED              AMOUNT       AS OF

                              101                     $7,816,328           $1,936,398       12/31/05
                              102                     $4,740,448           $4,740,448       12/31/032
                              251                    $64,748,170          $56,885,208       12/31/05

                              Totals                 $77,304,946          $63,562,054



                          In Georgia, HAVA payments are administered by the Secretary of
FINANCIAL                 State (SOS). To account for the payments, HAVA requires states to
MANAGEMENT                maintain records that are consistent with sound accounting principles,
REQUIREMENTS              fully disclose the amount and disposition of the payments, identify
                          project costs financed with the payments and with other sources, and
                          will facilitate an effective audit.

                          In addition, the Commission notified states of other management
                          requirements. Specifically, that states must:

                              9 Comply with the Uniform Administrative Requirements for
                                Grants and Cooperative Agreements with State and Local
                                Governments (also known as the “Common Rule” and
                                published in 41CFR105-71).

                              9 Expend payments in accordance with cost principles for
                                establishing the allowability or unallowability of certain items
                                of cost for federal participation issued by the Office of
                                Management and Budget in Circular A-87.

                              9 Follow the requirements of the Cash Management and
                                Improvement Act.

                              9 Submit annual financial reports on the use of Title I and Title II
                                payments.


OBJECTIVE                 The objective of our review was to determine whether Georgia (1)
                          managed Help America Vote Act (HAVA) funds in accordance with
                          the Uniform Administrative Requirements for Grants and Cooperative
                          Agreements with State and Local Governments (the Common Rule)
                          and the Cost Principles for State, Local, and Indian Tribal

2
 Georgia reported that it expended all its Section 102 funds in 2003 and, therefore, did not report any
additional expenditure of Section 102 funds in 2004 or 2005.




                                                     2
                           Governments (Office of Management and Budget Circular A-87) and
                           (2) complied with HAVA requirements for maintaining the election
                           fund and sustaining the State’s level of expenditures for elections.

                           The part of the audit that covered expenditures focused on:

                                9 Accumulating the financial information reported to the EAC on
                                  Standard Forms 269.
                                9 Accounting for salaries.
                                9 Purchasing goods and services.
                                9 Accounting for property.
                                9 Accounting for matching costs.
                                9 Spending by counties.
                                9 Charging indirect costs.

                           RESULTS OF REVIEW

SUMMARY                    We found that Georgia administered its HAVA funds in accordance
                           the Common Rule and OMB Circular A-87.3 We also found that
                           Georgia complied with the HAVA requirement for maintaining the
                           State’s level of expenditures for elections but did not fully comply with
                           the requirement for the establishment of an election fund.

ELECTION FUND Sections 254(a)(5) and (b)(1) of HAVA require a state to establish an
                           election fund in the treasury of the state government which consists of
                           state appropriations for HAVA activities, the requirements payments,
                           and interest for carrying out the activities for which the requirements
                           payment are made to the State. In regard to state appropriations,
                           Section 253 (a) requires a state to certify, among other things, that it
                           has appropriated 5 percent of the total amount to be spent for activities
                           authorized for the use of requirements payments.
                           While Georgia established an election fund for the deposit of HAVA
                           payments and related interest, the account was not established in the
                           state treasury and did not include Georgia’s appropriation of its 5
                           percent matching contribution. Georgia’s fiscal year 2003
                           appropriation for the Secretary of State included an approximate $3.4
                           million increase “to expand the Georgia voter education program,
                           including 13 positions, in preparation for the statewide uniform
                           electronic voting system authorized by SB [Senate Bill] 213.” Office
                           of Secretary of State officials told us that the $3.4 million increase was
                           Georgia’s matching contribution. However, the $3.4 was not deposited


3
    Georgia did not use HAVA funds from EAC for indirect costs or for subgrants to counties.




                                                      3
into the election fund.
During our review, we found that in fiscal years 2003, 2004, and 2005,
the Secretary of State reported that it spent approximately $6 million in
state matching funds for statewide uniform voting and education. This
amount exceeds its $3.4 million matching requirement by about $2.6
million and more than offsets any interest lost as a result of not
depositing its $3.4 million match in the election fund.
Regarding the amount of HAVA funds and interest still available for
expenditure, we found that the March 31, 2006 balance of unobligated
funds was approximately $960,000.

We discussed this situation with the Executive Director of the
Commission and asked whether the Commission wanted Georgia to set
up an Election Fund in the state treasury, as required by HAVA. The
Executive Director told us that given that the State had expended most
of the HAVA funds and spent in excess of its matching requirement
that he did not believe that it was now necessary for Georgia to set up
an election fund in the state treasury. Accordingly, we make no
recommendation regarding this matter.




                          4
                                                    APPENDIX

SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

9 The prior single audit report and other reviews related to the
  Secretary of State’s financial management systems and the HAVA
  program for the last 3 years.
9 Policies, procedures and regulations for Georgia’s management and
  accounting systems as they relate to the administration of HAVA
  programs.
9 The State Plan required by HAVA and an organizational chart of
  the SOS.
9 Inventory lists of all equipment purchased with HAVA funds.
9 Major purchases.
9 Supporting documents maintained in the accounting system for
  payments made with HAVA funds.
9 Appropriations and expenditure reports for State funds used to
  maintain the level of expenses for elections at least equal to the
  amount expended in fiscal year 2000 and to meet the five percent
  matching requirement for section 251 requirements payments.
9 Information regarding source/supporting documents kept for
  maintenance of effort and matching contributions.
We also interviewed appropriate Georgia employees about the
organization and operation of the HAVA program.

We conducted our review in accordance with Government Auditing
Standards issued by the Comptroller General of the United States. As
such, we included tests and procedures as considered necessary under
the circumstances to determine whether the Secretary of State
administered HAVA payments in accordance with applicable
requirements. Because of inherent limitations, a study and evaluation
made for the limited purposes of our review would not necessarily
disclose all weaknesses in administering HAVA payments.




                      5
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC in a
OIG’s Mission         way that they work better and cost less in the context of today's
                      declining resources. OIG also seeks to detect and prevent fraud,
                      waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-3127


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds
